                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                      MEMORANDUM OF INVESTIGATION

 Case Number: 110090044                                                                    Page 1 of 1



          We received an allegation that a PI 1 on an NSF award 2 was misusing the NSF Award funds. We
          requested and reviewed all financial documentation. Additionally, we spoke with representatives
          at the Grantee University and concluded that the allegation was not substantiated.

          This investigative case is closed with no further action taken.




                                                                                        Date
Affix your signature;                                                  07/05/2012
Print your name; insert
date MOl completed.

NSF OIG Form 4 (11 /02)
